<html>
<title> - NOMINATION OF ERNEST MITCHELL, JR.</title>
<body><pre>[Senate Hearing 112-317]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-317
 
                   NOMINATION OF ERNEST MITCHELL, JR.

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

  NOMINATION OF ERNEST MITCHELL, JR., TO BE ADMINISTRATOR, U.S. FIRE 
ADMINISTRATION, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                           HOMELAND SECURITY

                            OCTOBER 5, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
72-485                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
              Jason T. Barnosky, Professional Staff Member
               Nicholas A. Rossi, Minority Staff Director
                   Jennifer L. Tarr, Minority Counsel
        Eric B. Heighberger, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Pryor................................................    10
Prepared statements:
    Senator Lieberman............................................    13
    Senator Collins..............................................    15

                                WITNESS
                       Wednesday, October 5, 2011

Ernest Mitchell, Jr., to be Administrator, U.S. Fire 
  Administration, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security:
    Testimony....................................................     4
    Prepared statement...........................................    17
    Biographical and financial information.......................    20
    Responses to pre-hearing questions...........................    33
    Letter from the Office of Government Ethics..................    45
    Response to post-hearing question for the Record.............    46


                   NOMINATION OF ERNEST MITCHELL, JR.

                              ----------                              


                       WEDNESDAY, OCTOBER 5, 2011

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning, and welcome to this hearing on the nomination of 
Ernest Mitchell, Jr., to be the Administrator of the U.S. Fire 
Administration (USFA), which, of course, is within the 
Department of Homeland Security (DHS).
    The USFA was established in 1974. It is the primary Federal 
agency addressing the needs of the Nation's firefighters with 
the goal of reducing loss of life and economic loss due to fire 
and related emergencies.
    The USFA has a number of specific and important 
responsibilities. It collects, analyzes, and disseminates data 
and information on fire and other emergency incidents; and it 
researches and develops fire prevention and fire safety 
technology.
    The agency also trains mid- and senior-level fire and 
emergency medical services officers at the National Fire 
Academy, and more recently online. Last year, the National Fire 
Academy provided nearly 3,800 courses and reached more than 
113,000 student firefighters.
    USFA also assists the Federal Emergency Management Agency 
(FEMA) in carrying out the Assistance to Firefighters Grant 
(AFG) program and the Staffing for Adequate Fire and Emergency 
Response (SAFER) grant program. I particularly appreciate this 
as these grants provide critical assistance to local fire 
departments and are very important to this Committee and 
members of both parties on the Committee.
    I can tell you that in Connecticut--and it is great to see 
Chief Wall here--we have seen the benefits of these programs 
time and time again as they have helped departments get much-
needed equipment, training, and staff to prepare for their 
increased duties in responding to all sorts of disasters. Post-
911 and post-Katrina, I think what we increasingly see is not 
just a local responsibility, but a regional or national 
responsibility.
    Chief, I am also mindful that you have been nominated for 
this position at a time when our Nation's fiscal difficulties 
have created real pressures to dramatically reduce funding for 
just about all Federal programs. In this climate, USFA's 
ability to provide timely and accurate information to Congress 
and the public about emergencies and about our capacity to 
respond to them takes on added significance.
    Clearly, Chief Mitchell understands firefighting and the 
needs of firefighters. I would take up a lot more time than 
this hearing probably will if I listed all of his 
qualifications for this office, but let me just touch on a few 
highlights.
    Thirty-three years ago, he started his career mapping 
wildland fires at the Los Angeles County Fire Department and 
later joined the City of Compton Fire Department where he 
served as a firefighter, fire inspector, arson investigator, 
fire captain, fire marshal, battalion chief, and then special 
assistant to the city manager.
    Subsequently, he served as chief of the Monrovia and 
Pasadena Fire Departments, and in 2003 and 2004, he became the 
president of the International Association of Fire Chiefs, a 
very important organization representing nearly 13,000 fire 
chiefs and fire emergency officers.
    In the midst of all of this, Chief Mitchell also found time 
to volunteer in his community with the American Red Cross, the 
American Cancer Society, and the Salvation Army to just mention 
a few of the ways in which this really great citizen has given 
back to his community.
    Chief Mitchell's nomination has been endorsed by the 
International Association of Firefighters--we would really be 
troubled if that endorsement was not forthcoming, but it is 
enthusiastically before us--the International Association of 
Fire Chiefs, and the National Fire Protection Association.
    Chief, you clearly come before this Committee with a very 
strong background and with a very strong set of supporters, and 
that means a lot to us. We appreciate your lifetime of service 
to our country and thank you for your willingness to take on 
yet another chapter in this career of public service.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    America's firefighters play a vital role in the security of 
our Nation. Whether it is in response to a terrorist attack, a 
wildland fires, or a house fire in the community, America has 
come to rely on our firefighters.
    America's firefighters, whether professional or volunteer, 
always answer the call. Stories of the heroism by these men and 
women who risk their lives every day to save the lives of 
others continually amaze me.
    I am honored to serve along with Senator Lieberman as the 
co-chair of the Congressional Fire Caucus. Recognizing the 
importance of the position of the U.S. Fire Administrator, this 
Committee elevated the position in 2006 as part of our landmark 
Post-Katrina Emergency Management Reform Act.
    The Fire Administrator is the steward of our Nation's 
firefighters and is responsible for research, data collection 
and analysis, and fire education initiatives.
    In a report released last week, the U.S. Fire 
Administration found that over the past 10 years, the overall 
trend in fires declined by 18 percent. During the same time 
period, there was also a 20 percent decline in civilian deaths 
and a 22 percent drop in injuries.
    We can be proud of this progress. Nevertheless, although 
America's fire death rate is improving, it continues to be 
higher than more than half of the industrialized countries in 
the world. This is an issue that I want to discuss with our 
nominee to explore his views on why that is the case and what 
we may do about it.
    Sadly, during the same time period, there have been an 
average of 3,570 deaths and nearly 18,300 injuries per year. 
The Administrator must work to improve these statistics, which 
represent loss and pain to American families. We must also 
continue to educate and train current and future generations of 
firefighters.
    As the Chairman has pointed out, so I will not repeat the 
statistics, the USFA plays an important role in the 
professional development of fire services personnel through the 
National Fire Academy.
    The Chairman and I have also been strong advocates for the 
AFG and SAFER grant programs and earlier this year worked on 
legislation to reauthorize them through the year 2016.
    In 2008, we reauthorized the U.S. Fire Administration. In 
this reauthorization, we updated the curriculum of the National 
Fire Academy, expanded the range of firefighter training 
programs, promoted the adoption of national voluntary consensus 
standards for firefighter health and safety, and established a 
fire service position at DHS's National Operations Center.
    As I am sure you are aware, the U.S. Fire Administration is 
up for reauthorization next year; and if our nominee is 
confirmed, and I have every expectation that he will be, we 
look forward to working with him on how to further strengthen 
and improve the Fire Administration through that 
reauthorization.
    Again, I too am impressed with the background and 
qualifications of our nominee, and I look forward to hearing 
his response to questions today.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Chief Mitchell has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics.
    Without objection, this information will be made part of 
the hearing record with the exception of the financial data, 
which are on file and available for public inspection in the 
Committee offices.
    Chief Mitchell, as I believe you know, our Committee rules 
require that all witnesses at nomination hearings give their 
testimony under oath. So I would ask you to please stand now 
and raise your right hand.
    Do you swear that the testimony you are about to give to 
this Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Mitchell. I do.
    Chairman Lieberman. Thank you very much. Please be seated.
    We now welcome an opening statement if you have one and, of 
course, would also be happy to have you introduce relatives or 
others who are here with you today.

TESTIMONY OF ERNEST MITCHELL, JR.,\1\ TO BE ADMINISTRATOR, U.S. 
FIRE ADMINISTRATION, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Mitchell. Thank you. Good morning, Mr. Chairman and 
Ranking Member Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mitchell appears in the Appendix 
on page 17.
---------------------------------------------------------------------------
    It is indeed an honor to sit before you today as the 
President's nominee to serve as the next U.S. Fire 
Administrator and as a leader at the Federal level in response 
to the challenges facing the Nation's fire services.
    I would like to acknowledge my wife, Donnise, who has 
agreed on many occasions for me to take on leadership 
challenges that really occupy much of my time and energy. She 
supports me throughout.
    There are several officials here from the International 
Association of Fire Chiefs. I would like to thank each and 
every one of them for being here this morning and acknowledge 
their presence.
    We also have guests from the U.S. Fire Administration and 
National Fire Academy that are here as well. Without going into 
each name, I hope I am not overlooking anyone.
    Chairman Lieberman. Thank you. We welcome all of you.
    Mr. Mitchell. As I reflected on how I got here today, I 
recalled that my passion to become a firefighter developed when 
I was working for the Los Angeles County engineers, mapping 
large wildland fires from fire department helicopters in the 
early 1970s.
    My desire to follow that calling has led me to serve in 
many capacities, but this opportunity is the fire chief's 
career topper, the chance to serve my country and the fire 
service at the highest level.
    During my 33-year fire service career, I served at the 
local, State, and national level of fire service organizations. 
I have had the honor of leading and serving as the fire chief 
in both the City of Monrovia and City of Pasadena Fire 
Departments in California.
    At the regional level, I served as president of the 
Foothill Fire Chiefs Association in Los Angeles and the Los 
Angeles Area Fire Chiefs Association.
    At the State level, I served as president of the League of 
California Cities Fire Chiefs Department; and nationally, I 
have served as the president of the International Association 
of Fire Chiefs.
    Since retiring, I have remained active by serving on 
various boards of directors and advisory committees, such as 
the Department of Homeland Security Science and Technology 
Advisory Committee, the International Association of 
Firefighters Hazardous Materials Advisory Committee, and the 
International Fire Service Training Association Executive 
Board.
    These experiences and others have provided me with a 
diverse breadth of knowledge and experience with local and 
national emergency service related issues while also allowing 
me to develop and maintain excellent working relationships with 
fire service organizations across this country and with the 
individuals who serve within them.
    In addition to my fire service background, I have 
administered citywide emergency management programs in both 
Monrovia and Pasadena. I have also served on the boards of 
directors of several not-for-profit community organizations.
    These experiences have expanded and strengthened my ability 
to work as a leader and as a community partner. I have worked 
effectively within local nonprofit organizations and government 
to enhance the overall quality of life in the communities in 
which I have served. I value the opportunity to participate in 
and make positive contributions to civic and professional 
groups.
    If confirmed as U.S. Fire Administrator, I will have the 
opportunity to expand on my body of work and enjoy the added 
honor of working to enhance our Nation's fire service for the 
American people.
    I believe my background and experience are ideally suited 
for the position, and I believe I will bring a skill set to the 
Fire Administration that will add value to the organization and 
allow me to work effectively in advancing the achievement of 
its mission and goals.
    The mission of the USFA is to provide national leadership 
to foster a solid foundation for local fire and emergency 
services in prevention, preparedness, and response. This is a 
tremendously important endeavor that I believe is best achieved 
through meaningful collaboration.
    If confirmed as U.S. Fire Administrator, I will work to 
engage all agencies and organizations that may assist in 
achieving the USFA mission, which may include other Federal 
stakeholders, local, tribal, regional, and State governments, 
fire service organizations, and other organizations whose 
missions are complementary to the USFA or whose interests are 
germane to a particular activity or consideration.
    If confirmed, I will work to improve all programs and 
services that enhance the fire service role of preparing for, 
responding to, and mitigating incidents that have the potential 
of causing harm to life, property, and the environment in the 
United States of America.
    I thank the Committee for considering my nomination as U.S. 
Fire Administrator.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today. I am happy to answer any questions that the 
Committee may have.
    Chairman Lieberman. Thanks very much, Chief Mitchell, for 
that excellent opening statement. I am going to start the 
questioning with the standard questions asked of all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Mitchell. No.
    Chairman Lieberman. Second, do you know of anything 
personal or otherwise that would in anyway prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Mitchell. No.
    Chairman Lieberman. And third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Mitchell. Yes.
    Chairman Lieberman. Thank you very much.
    We will do a 7-minute round of questions now. As you know, 
and as Senator Collins referenced, the authorization for the 
USFA expires in 2012, and we expect to consider reauthorizing 
legislation later this Congress. I wanted to ask you if you 
have any thoughts about specific issues that we should be 
addressing in the reauthorization of the USFA?
    Mr. Mitchell. Thank you, Mr. Chairman.
    There are, of course, the existing programs and mission 
objectives that are set that I believe we would continue if I 
am confirmed.
    On the other side, I also know that the mission is evolving 
and that there are a couple of initiatives that are now a part 
of the Fire Administration that may need to be advanced or 
expanded upon.
    Primarily, where do we stand with the relationship to 
emergency medical services and how do we go about that? And 
also, with respect to the national preparedness system and the 
Emergency Support Function No. 4, what level of participation 
should the Fire Administration be engaged in? And so, I think 
those things need to be looked at; and if confirmed, I would 
work with staff and other Federal stakeholders and outside 
agencies to discuss those issues.
    Chairman Lieberman. That is a good list; if and when you 
are confirmed, we would really welcome your involvement in the 
reauthorization, based on all the experience you have had.
    Over the last years, the USFA has seen a decline in its 
budget, as you know. In fiscal year 2004, the budget was over 
$57 million. By fiscal year 2011, the current year, it has 
fallen to $45.5 million, and those reductions in the normal 
course of the budget process now are likely to continue.
    As I am sure you know, in its request for fiscal year 2012, 
the Administration has asked for $42.5 million, which is 
another $3 million decline.
    Generally speaking, from what you know, what is the likely 
impact of continued funding cuts on the USFA?
    Mr. Mitchell. Mr. Chairman, without knowing the specific 
impacts, I know that in my background I have worked with 
declining revenues in local jurisdictions on many occasions, 
and we have had to continue to tighten the belt. I see that is 
going on all over government.
    I know that the Fire Administration has been engaged in 
trying to do things more efficiently. If I am confirmed, we 
would seek to still do that. I also know that there is a point 
where not even efficiencies and fine tuning will allow you to 
continue with programs, and some decisions may have to be made 
to eliminate programs.
    And those are things that would need to be discussed with 
the stakeholders inside the Federal Government and outside. We 
would have to address priorities and make some tough decisions 
but with a lot of consultation and based on what our priorities 
are in the Federal Government and what they would be in our 
national preparedness system in support of FEMA's efforts and 
just take all of those into consideration.
    Some of the steps that are being taken is how do we 
maximize training and minimize those costs. And so, the Fire 
Administration has moved in the direction to accentuate its 
blended learning, and it is not just all on campus.
    There are off-site courses. There is distance learning via 
the Internet, and also there are opportunities to partner with 
educational institutions and State fire training officers. 
Those areas would probably need to be explored even more.
    Chairman Lieberman. That is a good answer. Let me ask you 
about two programs that mean a lot to the Committee and I know 
a lot to firefighters, which are the AFG and SAFER grant 
programs, which I think have been really successful programs.
    But despite the successes, the programs have now been 
targeted for budget cuts. The House in the fiscal year 2012 
Homeland Security Appropriations bill would reduce funding for 
these two programs from a total $810 million this year way down 
to $350 million next year. That is a very steep cut. The Senate 
Homeland Security Appropriations bill would also reduce funding 
but much less, from $810 million to $750 million.
    I just wanted to give you an opportunity, based on your 
experience on the frontlines of firefighting, to give your 
evaluation of the importance of the AFG and SAFER grant 
programs to local fire departments and what would be the likely 
impact on local firefighting services if, in fact, we cut, as 
the House measure would, funding to less than half of what it 
is now?
    Mr. Mitchell. I could speak from my experience in the fire 
service and my experience with the fire grants. I worked for a 
department that received the Fire Act grant that was very 
beneficial in allowing us to improve firefighter health and 
wellness.
    I also have worked as a peer grant reviewer in the Fire Act 
grant program a few times and have seen firsthand or have read 
what the needs are in the fire service.
    There could be a very high degree of difficulty created for 
many departments, especially the smaller departments with lower 
budgets, where those hits are deeper for them.
    At this point, we are trying to improve as a Nation in the 
area of national preparedness and working together. The Fire 
Act grants really do allow fire departments across the country 
to get to a baseline level of readiness and to enhance the 
ability to work together because of like training and like 
equipment.
    And so, that is really important to the country. I support 
the Fire Act grants that the fire service supports. If I were 
confirmed as U.S. Fire Administrator, then I would work within 
the Federal system as an advocate to maintain that at the 
highest level that we could.
    And then, of course, when those levels are set, we will 
work with all the stakeholders to get them the maximum that we 
can get out of the actual grants themselves.
    Chairman Lieberman. Very good. You come into this position 
with such experience and credibility that one of the roles that 
I hope you will take advantage of is the role of advocate 
because I think you will command attention up here on Capitol 
Hill where the decisions will be made.
    These two programs have always had broad bipartisan 
support, and I hope we can come to a point in actually adopting 
the 2012 budget where we continue to have that broad bipartisan 
support. I am confident that will be the case in the Senate.
    My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First, let me echo the Chairman's support for the AFG and 
SAFER grant programs. I am delighted to hear that you will be 
an advocate internally as the budget is put together.
    Many times when we have nominees and ask them a question 
like that they hedge their bets. It was nice to have a 
straightforward answer from you in that regard on an issue that 
matters so much to our firefighters throughout the country.
    In my State, we have professional firefighters who work in 
the cities but often live in small rural towns that have only 
volunteer fire departments.
    In 2004, you testified on the House side, and you were 
asked a number of questions about that practice, about a full-
time firefighter who is working in a city volunteering perhaps 
on his time off or her time off in a small town where the 
individual may live and there is only a volunteer fire 
department.
    And you expressed some concern about that situation, and 
you said that ``local chiefs need the ability to deny employee 
participation in outside employment or activities that could be 
in conflict with their primary employment.''
    You went on to say that you had not chosen to prevent 
firefighters from volunteering, but that if trends or data 
developed that indicate that this becomes an issue, then you 
might well act to prevent them from volunteering. There have 
been some volunteer firefighters who have contacted me who have 
been troubled by that testimony.
    So, I want to give you the opportunity today to be very 
clear on that point. Do you believe that employees should be 
prohibited from volunteering during their free time?
    Mr. Mitchell. No, I do not. Now, I would like to, of 
course, give you the context for that response at the hearing 
at that time.
    Senator Collins. That would be helpful.
    Mr. Mitchell. I support active firefighters volunteering in 
their own communities. I have had career firefighters working 
for me in other departments who did volunteer in the 
communities in which they lived, and there was never any 
prohibition against that.
    At the time, I was representing the International 
Association of Fire Chiefs in that hearing, and we were taking 
the position about local control, and it really was not about 
volunteerism.
    It was about restricting an employee from outside work 
activities because of some impact on his work, and on an 
individual case-by-case basis, we believed that the fire chief 
should have the ability to stop the outside behavior; and, yes, 
that could include volunteering, but it would only be if an 
individual had a job performance problem and it was tied to 
volunteering.
    For instance, if an employee was out on sick leave 
regularly and you found that he was working in another job or 
even volunteering in another community on those days, you would 
want the ability to restrict that activity and address that. 
That was what that was really about, not volunteering itself.
    Senator Collins. The example you gave actually is troubling 
to me because if a person is abusing sick leave, the issue is 
to prevent the abuse of sick leave. It really is totally 
separate from volunteering at a local fire department that is a 
volunteer department.
    Any abuse of sick leave, regardless of what employees were 
doing when they claimed to be sick, should be troubling. But 
the answer to me is not to ban them from volunteering. The 
answer to me is to discipline them from abusing sick leave 
regardless of what they were doing.
    Mr. Mitchell. I would agree that it is about the abuse of 
sick leave in that example; and I guess the case was, to expand 
on it, if you prohibited whatever it is they are doing, if the 
employees were to say, well, you are stopping me from 
volunteering by doing that, then that would be their 
contention.
    The reason that it came up was a clause in the 
reauthorization of the Fire Act that said if you discriminated 
against someone from volunteering, you could be prohibited from 
getting a grant, and it is not that you would be doing that, 
but someone could make the allegation.
    But the intention was really about outside work activities; 
and when asked if volunteering could be one of those 
activities, the answer was yes, but it is really about saying 
you should stop whatever that is and not be doing that when you 
were supposed to be here at work.
    Senator Collins. Well, that is the issue. The person is 
supposed to be at work and only using sick leave if he is ill. 
If the person were off skiing, you presumably would not ban him 
from skiing. If he was doing grocery shopping, you would not 
ban him from grocery shopping nor should you be banning him 
from volunteering.
    The issue is, he is abusing sick leave, and it does not 
matter what he was doing if he is not sick or caring for a 
relative or doing something that is legal under the sick leave 
policy. That should be the issue, not volunteering.
    Mr. Mitchell. That is correct, and we would say stop doing 
that on the days that you are supposed to be here at work. If 
he was to contend, then you are restricting me, that was really 
more of the issue and that was just an example.
    They might make that allegation, but that is not the idea 
behind it, and I would say I would never support banning 
volunteers from volunteering.
    Senator Collins. So that is the key issue then to wrap up 
this question, if you are confirmed, would you pursue any 
policies that would prevent employees of the U.S. Fire 
Administration from volunteering during their free time or in 
any way send a signal to fire departments across the country 
that they should restrict volunteering appropriately on their 
own time?
    Mr. Mitchell. No, I would not.
    Senator Collins. Let me just quickly ask you one final 
question. You mentioned it in your statement about, if I may, 
Mr. Chairman, the Emergency Support Function No. 4. It really 
surprises me that the U.S. Department of Agriculture is 
designated as the lead for the coordination of incidents 
involving wildland, urban, and rural fires that need Federal 
help.
    To me, the fire service ought to be the lead in that area. 
Now, I know there has subsequently been a Memorandum of 
Understanding in 2006 that tries to clarify the roles, and it 
does designate the Fire Administration as the lead agency for 
coordination of the incidents that do not involve wildland 
fires.
    What are your thoughts on that? Should we have a clearer 
designation here and strengthen the role of the Fire 
Administration, which it seems to me ought to be the lead 
agency?
    Mr. Mitchell. Thank you, Senator.
    At this point, I do not know to what extent those 
conversations have taken place in the Fire Administration and 
with FEMA and with the U.S. Forest Service. In Southern 
California, I have worked with the Forest Service in wildland 
fires, and we shared some boundaries, shared resource areas 
that we jointly responded. We did unified command. We worked 
together on addressing the problems.
    At this point, the role of the U.S. Fire Administration is 
to be the subject matter expert for those incidents outside the 
forest. If I were confirmed, then I would like to have those 
conversations and discussions to see if that should be expanded 
upon because of the level of experience and knowledge that the 
fire service brings to incidents other than fires in the 
forest, and I think that would be an appropriate discussion.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Senator Pryor, good morning. It is all yours.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you. Thank you both for having this 
hearing today, and thank you, Mr. Mitchell, for being here. I 
just have a few brief questions. Senator Lieberman talked a 
moment ago about the budget pressure that everyone is under in 
this environment and how we are going to have to stretch our 
dollars.
    Are you familiar enough with the budget at the U.S. Fire 
Administration to know if there are inefficiencies or programs 
that do not really work? Are there ways that you can trim your 
spending but not hurt the mission of the agency?
    Mr. Mitchell. Thank you, Senator Pryor. No, sir, I am not 
familiar enough at this point with the budget of the U.S. Fire 
Administration to identify those types of possibilities.
    I am familiar with some of the work of the U.S. Fire 
Administration, the educational programs, the public 
information and outputs for public education. I have observed 
things to be done in an excellent manner.
    If I were confirmed, I would right away sit with staff and 
also stakeholders and examine what are we doing, how are we 
doing it, what could we do better and more efficiently, and 
discuss our priorities. But at this point in time, I do not 
have any of that detailed information.
    Senator Pryor. It seems to me that even though there is a 
cost associated with the agency's mission, USFA could save a 
lot of money by preventing fires and reducing the number of 
fire-related injuries and deaths and could prevent property 
damage from occurring.
    One of the ways to do this is through mitigation. What are 
your plans for mitigation? Maybe we are doing as much as we can 
already. But are there any other mitigation strategies we can 
use to try to prevent fires, injuries, deaths, and property 
damage?
    A moment ago, you talked about education, and obviously 
that is a big component of what you do. But there are also 
things like improving building codes and identifying unsafe 
products. How involved do you think you should be in the broad 
range of mitigation?
    Mr. Mitchell. Senator, I believe that if confirmed as Fire 
Administrator, I need to be actively and integrally involved in 
taking a look at all of the practices at the Fire 
Administration.
    I think I could bring a fresh set of eyes to see if there 
are other perspectives or things that could be improved upon. 
But there would need to be a lot of dialogue with the staff, 
the other fire service organizations, and our other Federal 
partners to see what has been explored and what has not.
    I would agree with you that prevention and mitigation are 
more cost-saving than response. Are there ways we can do a 
better job at that? Is there data that suggest other ways? And 
we would just look to make as many improvements as we could but 
with full inspection and a lot of work in those areas.
    Senator Pryor. I just have one last question. Again, I am 
curious about your role in product safety review. Right now, 
products are reviewed by Underwriters Laboratories (UL) and the 
National Fire Protection Association (NFPA) and maybe some 
other entities that are not government organizations. They are 
private sector and privately funded organizations. They deal 
with the building requirements and safety requirements of 
products and everyday materials.
    Do you think that your agency should have a larger part in 
safety standards review? Should USFA be working with 
Underwriters Laboratories and the National Fire Protection 
Association and even the Consumer Product Safety Commission on 
fire prevention and fire safety standards?
    Mr. Mitchell. Senator, I know that the U.S. Fire 
Administration has relationships with those agencies you 
mentioned currently and has been working with them.
    I know for instance that there are members who sit on 
technical committees with the NFPA for setting standards and 
work actively with the National Institute of Standards and 
Technology, the National Institute for Occupational Safety and 
Health, UL, and partnering.
    To what level and to what extent those roles are effective 
and what those outputs are, that I do not know. But I know that 
work is going on.
    If I were confirmed, that would be part of what we would 
investigate to see what level we are working at, what other 
areas could we be working in. Those are potential resources to 
enhance the overall safety of Americans, and I think that the 
Fire Administration should investigate all of those.
    Senator Pryor. Mr. Chairman, thank you.
    Chairman Lieberman. Thanks, Senator Pryor.
    Chief Mitchell, I think that concludes the questions that 
we have to ask you. I thank you very much.
    I want to note for the record that this could be a historic 
moment; this could be the last time this Committee will 
consider the nomination of a U.S. Fire Administrator because we 
passed legislation earlier in the session, the Presidential 
Appointment Efficiency and Streamlining Act, which is aimed at 
reducing the number of presidential nominees that must go 
through the whole confirmation process, and the USFA 
Administrator is one of those.
    Of course, the legislation is in the House, and it is 
beyond our capacity, perhaps the capacity of anyone, to predict 
what one chamber will do with another chamber's legislation.
    But in any case, it will be a high point on which to 
conclude the history of our hearings if this hearing on your 
nomination is the last.
    So, without objection, the record will be kept open until 
noon tomorrow for the submission of any written questions or 
statements for the record. We are making that a short time 
frame because we would like to move you through the Committee 
and onto the floor and hopefully through the Senate as quickly 
as possible so you can begin your responsibilities.
    Again, I thank you for your service over your lifetime and 
for your willingness to serve in this national position. I 
thank your wife and family for the support they have given you 
and all of your friends from firefighting who are here to back 
you up as well.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I, too, am 
impressed with the nominee and will join you in trying to move 
his nomination forward for as expeditiously as possible. Thank 
you.
    Chairman Lieberman. Thank you very much.
    With that, the hearing is adjourned.
    [Whereupon, at 10:47 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 72485.001

[GRAPHIC] [TIFF OMITTED] 72485.002

[GRAPHIC] [TIFF OMITTED] 72485.003

[GRAPHIC] [TIFF OMITTED] 72485.004

[GRAPHIC] [TIFF OMITTED] 72485.005

[GRAPHIC] [TIFF OMITTED] 72485.006

[GRAPHIC] [TIFF OMITTED] 72485.007

[GRAPHIC] [TIFF OMITTED] 72485.008

[GRAPHIC] [TIFF OMITTED] 72485.009

[GRAPHIC] [TIFF OMITTED] 72485.010

[GRAPHIC] [TIFF OMITTED] 72485.011

[GRAPHIC] [TIFF OMITTED] 72485.012

[GRAPHIC] [TIFF OMITTED] 72485.013

[GRAPHIC] [TIFF OMITTED] 72485.014

[GRAPHIC] [TIFF OMITTED] 72485.015

[GRAPHIC] [TIFF OMITTED] 72485.016

[GRAPHIC] [TIFF OMITTED] 72485.017

[GRAPHIC] [TIFF OMITTED] 72485.018

[GRAPHIC] [TIFF OMITTED] 72485.019

[GRAPHIC] [TIFF OMITTED] 72485.020

[GRAPHIC] [TIFF OMITTED] 72485.021

[GRAPHIC] [TIFF OMITTED] 72485.022

[GRAPHIC] [TIFF OMITTED] 72485.023

[GRAPHIC] [TIFF OMITTED] 72485.024

[GRAPHIC] [TIFF OMITTED] 72485.025

[GRAPHIC] [TIFF OMITTED] 72485.026

[GRAPHIC] [TIFF OMITTED] 72485.027

[GRAPHIC] [TIFF OMITTED] 72485.028

[GRAPHIC] [TIFF OMITTED] 72485.029

[GRAPHIC] [TIFF OMITTED] 72485.030

[GRAPHIC] [TIFF OMITTED] 72485.031

[GRAPHIC] [TIFF OMITTED] 72485.032

[GRAPHIC] [TIFF OMITTED] 72485.033

[GRAPHIC] [TIFF OMITTED] 72485.034

                                 <all>

</pre></body></html>
